AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Special Report

 Management Challenges at the
 Department of Energy




 DOE/IG-0808                                December 2008
______________________________________________________________________




                 Table of Contents

Introduction …………………………………………………………………………...………...1

Management Challenges ………………………………………………..………………………3

Watch List ……………………………………………………………………………………….8

Appendices …………………………………………………………………………………..…..l1

    1. Challenge Areas and Significant Issues Reported by Various Groups …………..….…11

    2. Relevant Reports Issued in Fiscal Year 2008 ………………………………………….12




_____________________________________________________________________
______________________________________________________________________




                       Introduction

With an annual appropriation of approximately $24 billion, the Department of Energy
(Department) is a multi-faceted agency that encompasses a broad range of national security,
scientific, and environmental activities. Since the passage of the Department of Energy
Organization Act in 1977, the Department has shifted its emphasis and priorities over time as the
energy and security needs of the Nation have changed. In recent years, the Department has
refocused its efforts in areas such as energy efficiency and conservation, environmental cleanup,
nuclear nonproliferation, and weapons stewardship. In order to accomplish its mission, the
Department employs approximately 110,000 Federal and contractor personnel and manages
assets valued at more than $134 billion, including a complex of national laboratories.

On an annual basis, the Office of Inspector General identifies what it considers to be the most
significant management challenges facing the Department. This initiative is an important
component of our effort to assess the Department’s progress in addressing previously identified
challenges, and it serves to highlight emerging issues facing the agency. The management
challenge process also assists the Office of Inspector General in setting priorities for its reviews
of Department programs and operations. This year, we identified six management challenges:

       •   Contract Administration
       •   Cyber Security
       •   Energy Supply
       •   Environmental Cleanup
       •   Safeguards and Security
       •   Stockpile Stewardship

Representing risks inherent to the Department’s operations as well as those related to its
management function, these challenges are, for the most part, not amenable to immediate
resolution and must, therefore, be addressed through a concentrated, persistent effort over time.
In addition to the management challenges, we also developed a “watch list,” which consists of
issues that do not meet the threshold of being classified as management challenges, yet warrant
continued attention by the Department. This year, the watch list includes Human Capital
Management, Infrastructure Modernization, and Worker and Community Safety.

For a number of years, the Office of Inspector General’s management challenge list included
both “contract management” and “project management” as separate challenge areas. The
Department has undertaken a significant effort to address long-standing problems with its
management of projects. In recognition of these efforts, we have eliminated project management
as a stand-alone challenge. We take this action, recognizing that in an agency such as the
Department of Energy, which is heavily contractor-dependent, there remains a direct link
between success in administrating its thousands of contract instruments and effective project

______________________________________________________________________
Page 1                                                       Introduction
______________________________________________________________________

management. Although the Department’s new project management initiatives are as yet
untested, our analysis suggests that its remediation plan has the potential to resolve many of the
problems we have identified in the past.

Although many of these challenges will require long-term efforts, by aggressively addressing
these issues, the Department can enhance program efficiency and effectiveness; reduce
operational deficiencies; decrease fraud, waste, and abuse; and achieve substantial monetary
savings.




Page 2                                                                               Introduction
______________________________________________________________________




                        Management Challenges

Contract Administration

To accomplish its mission, the Department places significant reliance on contractors, employing
nearly 100,000 contractor employees, and numerous subcontractor employees. Contracts are
awarded to industrial companies, academic institutions, and non-profit organizations that operate
a broad range of Department facilities. In fact, a substantial portion of the Department’s
operations are carried out through contracts.

During Fiscal Year (FY) 2008, the Office of Inspector General conducted a number of reviews,
which highlighted the need for improved management of Department contracts. For example,
we examined issues such as contract transition activities at the Nevada Test Site, excess charges
at the Los Alamos National Laboratory (Los Alamos), and changes to the Idaho Cleanup Project
contract baseline. These reviews and other work performed by the Office of Inspector General
underscore the challenge the agency has in administering major projects and the need for
effective contract management.

To its credit, the Department, in coordination with the Office of Management, issued a Root
Cause Analysis in April 2008, followed by a Corrective Action Plan in July 2008, as a means of
improving its performance in the areas of contract and project management. The stated purpose
of these documents was to provide a “roadmap to mitigate or eliminate the obstacles that have
significantly impeded the Department’s ability to complete projects on cost and schedule.” The
Corrective Action Plan identified the 10 most significant issues and their underlying root causes,
which contribute to contract and project weaknesses. Successful implementation of the plan
should help address historic project and contract management issues.

In addition to the Corrective Action Plan, the Department has developed other strategies to
improve deficiencies in the area of Contract Administration. However, given the number of
contracts handled by the Department and the complexity and importance of the Department’s
numerous multi-million dollar projects, combined with the continuing concerns found during our
reviews, we believe that the area of Contract Administration remains a significant management
challenge.

Cyber Security

Given the importance and sensitivity of the Department’s activities, along with the vast array of
data that is produced, cyber security has become a crucial aspect of the Department’s overall
security posture. In 2005, the Department established a Cyber Security Improvement Initiative,
the goal of which was to identify improvements in cyber security controls throughout the
complex. However, in recent years, threats to the Government’s information systems



______________________________________________________________________
Page 3                                            Management Challenges
______________________________________________________________________

infrastructure have actually become more frequent and more sophisticated, highlighting the
Department’s vulnerabilities in this arena.

Although the Department spent approximately $250 million during FY 2008 to implement cyber
security measures, security challenges and threats to the Department’s information systems
continue and are evolving. Adversaries routinely attempt to compromise the information
technology assets of the Department. As such, it is critical that cyber security protective
measures keep pace with the growing threat.

In 2008, as required by the Federal Information Security Management Act (FISMA), the Office
of Inspector General conducted a review to determine whether the Department’s unclassified
cyber security program adequately protects data and information systems. While we concluded
that the Department continued to make incremental improvements in its unclassified cyber
security program, our evaluation determined that additional action was required to further
enhance the agency’s overall cyber security program and help reduce risks to both its systems
and data. For example, our review identified opportunities for improvements in areas such as
certification and accreditation of systems, contingency planning, systems inventory, and
segregation of duties.

Other cyber security reviews conducted by the Office of Inspector General addressed the
certification and accreditation of national security systems and the management of publicly
accessible websites. We also completed a FISMA review of cyber operations at the Federal
Energy Regulatory Commission that identified a number of areas for improvement. In total,
each of these reviews highlighted the risks associated with protecting the Department’s computer
systems and personally identifiable information. As a result of these risks and in light of recent
events involving intrusions to the Department’s systems, we have identified Cyber Security as a
significant management challenge.

Energy Supply

Recent spikes in the cost of energy have underscored fundamental concerns related to the
availability of energy supplies in this country. This issue has had a dramatic impact on energy
consumers and the U.S. economy, with implications for our national security. While the
Department’s authorities in this area are indirect, there is an expectation that the Department will
play a leadership role in ensuring that the Nation’s energy needs are met through the
development, implementation, and execution of sound energy policy. Providing the leadership
to ensure reliable, affordable, and environmentally sound energy supply represents a significant
management challenge for the Department.

Provisions of the Energy Policy Act of 2005 (Act) have provided the Department with the
opportunity to aggressively implement key energy programs and initiatives, while leading the
effort to increase our national investment in alternative fuels and clean energy technologies. An
important and far-reaching provision of the Act authorized the Department to provide loan
guarantees for projects that “avoid, reduce, or sequester air pollutants or anthropogenic emissions
of greenhouse gases and employ new or significantly improved energy production technologies
as compared to commercial technologies in service in the United States.” The Department hopes



Page 4                                                                Management Challenges
______________________________________________________________________

to finalize the approval process for projects under its Loan Guarantee Program in the coming
months. If effective, the Department’s Loan Guarantee Program as well as other Department
initiatives could provide vital assistance in ensuring that the next generation of American energy
technologies are developed successfully and cost efficiently.

Nonetheless, the energy issues facing the world today will not be resolved overnight.
Addressing these issues will require both short-term and long-term solutions. For example, the
Department is tasked with helping to modernize our national energy infrastructure; expand the
Strategic Petroleum Reserve; invest in clean energy technologies such as hydropower, wind,
solar, and cellulosic biomass; and promote conservation in our homes and businesses. Given the
importance of stabilizing the Nation’s energy supply and the challenges that this monumental
task requires, we have categorized Energy Supply as a significant management challenge facing
the Department.

Environmental Cleanup

Since its establishment, the Department has had an important environmental mission. With the
end of the Cold War, this mission took on even greater importance as the agency began to
dispose of large volumes of solid and liquid radioactive waste, resulting from more than 50 years
of nuclear defense and energy research work. Currently, there is more than 1.5 million cubic
meters of solid radioactive waste and 88 million gallons of radioactive liquid waste that require
disposal. The disposal and clean-up costs associated with these efforts are projected to be in the
hundreds of billions of dollars.

Due to the risks and hazards associated with this difficult and costly task, we conducted a series
of reviews during FY 2008 to assess the Department’s activities in fulfilling its mission with
regard to environmental cleanup. For example, as early as 1943, Los Alamos began disposing of
its hazardous waste in pits, trenches, shafts, and landfills. In March 2005, Los Alamos, the New
Mexico Environment Department, and the Department signed a Consent Order to address the
potential release of contamination from this waste. However, an April 2008 audit disclosed that,
absent a dramatic change in approach, it is unlikely that the Department will complete certain
long-term remediation activities at Los Alamos in accord with applicable requirements. The
Department has experienced delays in removing waste from various facilities, making it unlikely
that remediation milestones established in the Consent Order will be met. Our finding at Los
Alamos is consistent with a broader observation made recently by Department management that
the agency would not meet some milestones and obligations contained in environmental
agreements that have been negotiated over many years.

The Los Alamos cleanup effort highlights just one example of the monumental task that the
Department faces to ensure that contaminated materials and radioactive waste are disposed of in
a safe, timely, and cost-effective manner. Overseeing the largest cleanup effort in the world, the
Department has made significant progress at several locations. However, the Department
continues to experience delays and cost overruns associated with programs at various sites. As
has been the case in previous years, Environmental Cleanup remains a management challenge
that warrants significant attention on the part of Departmental management.




Page 5                                                               Management Challenges
______________________________________________________________________

Safeguards and Security

With the advancement of the Manhattan Project and the race to develop the atomic bomb during
World War II, the origins of the Department are inextricably linked to national security. While
the Department has shifted its focus over its history as the needs of the Nation have changed,
special emphasis on safeguards and security has remained a vital aspect of the Department’s
mission. The Department plays a vital role in the Nation’s security by ensuring the safety of the
country’s nuclear weapons, advancing nuclear non-proliferation, and providing safe and efficient
nuclear power plants for the United States Navy. In order to faithfully execute its mission, the
Department employs numerous security personnel, protects various classified materials and other
sensitive property, and develops policies designed to safeguard national security and other
critical assets.

Over the past year, the Department has made strides in implementing safeguards and security
measures to protect the agency’s numerous employees and facilities. While this progress is
positive, during FY 2008 we conducted several reviews that highlighted the need for continued
improvement in this area. For example, we examined topics such as to compartmental
information, security clearances, foreign visits, and the certification and accreditation of national
security information systems. In each of these areas, we identified instances in which the
Department needed to improve its policies, procedures, and/or operations relating to safeguards
and security.

These examples as well as other work by the Office of Inspector General highlight the
importance of Safeguards and Security and the necessity for continued focus and improvement
by Department management on this crucial management challenge.

Stockpile Stewardship

The Department is responsible for the maintenance, certification, and reliability of the Nation’s
nuclear weapons stockpile. In order to ensure that our nuclear weapons continue to serve their
essential deterrence role, the Department conducts stockpile surveillance and engineering
analyses, refurbishes selected nuclear systems, and sustains the ability to restore the
manufacturing infrastructure for the production of replacement weapons.

Given the importance and complexity of the Department’s role in ensuring the vitality of the
U.S. nuclear stockpile, we have classified Stockpile Stewardship as a significant management
challenge. In recent years, the Office of Inspector General has conducted a number of reviews to
examine the Department’s activities and management strategies in this arena. For example, a
July 2008 review examined the nuclear weapon’s safety programs at the Sandia National
Laboratory (Sandia). Although ultimate responsibilities for nuclear weapons safety rests with
Federal managers, Sandia, a contractor-operated entity, produces independent safety assessments
that identify potential safety issues. We found that Sandia had not resolved internal
disagreements about the need to address identified nuclear weapon safety issues or made the
Department aware of those disagreements.




Page 6                                                                 Management Challenges
______________________________________________________________________

In another review, we identified issues relating to the Department’s heavy water inventory,
which is used in support of the stockpile stewardship program. Based on our analysis, the
Department’s heavy water inventory is adequate to meet near-term requirements, but absent new
sources of material, the inventory is likely to be fully depleted by 2019. Further, the Department
has yet to establish a path forward to secure new sources of heavy water. If the Department does
not take timely action to secure new sources of material, it is a risk of not being able to fulfill its
future national security missions, including current and future weapons life extension programs.

In addition, as noted in other Office of Inspector General reviews, the Department needs to make
improvements in its life extension and surveillance programs. Also, existing practices related to
the cost and scheduling of stockpile stewardship activities needs to be closely monitored. While
we recognize that the Department has taken action in recent years to further enhance the safety
and reliability of the Nation’s nuclear weapons stockpile, additional action is necessary to sustain
a viable nuclear weapon stockpile.




Page 7                                                                   Management Challenges
______________________________________________________________________




                        Watch List

The watch list consists of management issues that do not meet the threshold of major
management challenges, yet warrant continued attention by senior Department managers. Watch
list issues may include management challenges identified in previous years for which the
Department has implemented corrective actions or has achieved significant positive outcomes.
In addition, the watch list may include emerging issues that require Department action. Last
year, our watch list addressed two areas: Worker and Community Safety and Infrastructure
Modernization. This year, Human Capital Management has been removed from the list of
management challenges and placed on the watch list. As outlined below, despite being removed
as a formal challenge area, Human Capital Management remains a function that must be closely
monitored by the Department.

Human Capital Management

In the 2001 President’s Management Agenda, the Office of Management and Budget recognized
strategic management of human capital as one of the Government’s “most glaring problems.”
The Agenda specifically outlined concerns that the Department’s staff lacked adequate project
and contract management skills required to oversee large projects. Subsequently, the
Department undertook an effort to perform a critical skills gap analysis to review and evaluate
specific critical skill needs.

Over the past year, the Department continued its efforts to strategically manage its workforce
through newly implemented workforce planning techniques, increased emphasis on performance
and accountability, and identifying critical hiring needs. During FY 2008, the Department
expanded its Federal workforce from approximately 14,000 Federal employees to nearly 15,500
employees. In addition, efforts are underway to enhance overall recruitment and retention within
the Department to combat attrition challenges.

Overall, the Department has taken positive steps to meet its human capital needs. As a result of
these efforts, the area of Human Capital Management has been removed from the list of
management challenges. However, the area of Human Capital Management continues to be an
ongoing challenge that will require the attention of Department management in the years to
come.

Infrastructure Modernization

With assets totaling nearly $135 billion, the Department manages an array of critical
infrastructure, including national laboratories, power administrations, production and
environmental cleanup facilities, and numerous operations and field offices. In many cases, the
health and vitality of the Nation’s science and technology depends on the availability and
______________________________________________________________________
Page 8                                                       Watch List
______________________________________________________________________________

physical condition of the Department’s advanced research facilities. Given that numerous
facilities, particularly scientific laboratories, were built decades ago, the modernization of the
Department’s infrastructure should be a central feature of the Agency’s long-term planning in
order to advance the national, energy, and economic security of the United States.

In recent years, the Department has taken a number of steps to modernize its existing
infrastructure. Overall, construction of new facilities and upgrades to current facilities,
integrated with the plans of the entire U.S. scientific community, will help sustain the flow of
decisive scientific ideas, greater technological innovation, and other advances that are critical to
the scientific and economic well-being of the Nation.

As many facilities continue to age, future efforts pertaining to the conception, design,
maintenance, and operation of new and existing critical infrastructure are of vital importance to
the Department as well as the Nation as a whole. Given the importance of the Department’s
mission in areas of energy innovation, environmental cleanup, and national security, the overall
condition, functionality, and modernization of the Department’s infrastructure remains an area
that requires prolonged attention.

Worker and Community Safety

Given the numerous large-scale facilities and dangerous materials that make up the Department,
ensuring the safety of employees and the general public is of vital importance. Safety incidents
may potentially destabilize, delay, and disrupt the Department’s critical activities, and have
intangible costs such as a negative public perception of the Department. Due to the inherently
critical nature of these issues, the need for continued vigilance and improvement is essential. As
a result, we have retained the area of Worker and Community Safety on our watch list.

Although steps that the Department took to address worker and community safety issues
prompted us to remove it from the management challenges list in FY 2003, our work continues
to identify safety issues that require the attention of senior management. For example, recent
reports in this area have focused on hazardous materials such as beryllium and lead, which
present a health and safety risk to Department employees as well as the public. The Department
has a long history of beryllium use due to the element’s broad application to many nuclear
weapon and reactor operations. Exposure to beryllium, however, can cause beryllium
sensitization or Chronic Beryllium Disease, which is an often debilitating, and sometimes fatal,
lung condition. As a result, in January 2000, the Department established a Chronic Beryllium
Disease Prevention Program, in large part to reduce worker exposure to beryllium at Department
facilities.

In addition to issues involving beryllium, the Department has also developed specific plans
related to pandemic influenza. As required by the President’s “National Strategy for Pandemic
Influenza,” the Department has developed an agency plan to protect personnel and maintain
mission-essential functions. A December 2007 review found that while the Department and its
various field elements had made progress on the implementation of such a plan, much remained
to be done.




Page 9                                                                                  Watch List
______________________________________________________________________________

Over the past year, the Department took several steps to address previously identified as well as
emerging safety issues throughout the complex. Given the inherent risks associated with the
Department’s many nuclear, scientific, and cleanup projects, the area of Worker and Community
Safety is a continual process that requires continued attention and improvement.




Page 10                                                                              Watch List
                                                             Appendix 1
______________________________________________________________________


    Challenge Areas and Significant Issues Reported by Various Groups

        OIG Management                                          Significant Issues Identified
                                    GAO Challenge Area1
           Challenge                                                by the Department2

                                                                  Environmental Cleanup
                                   Cleanup of Radioactive &
      Environmental Cleanup
                                       Hazardous Waste
                                                                  Nuclear Waste Disposal

                                      Security Threats and
      Safeguards and Security                                             Security
                                           Problems

       Stockpile Stewardship       Nuclear Weapons Stockpile       Stockpile Stewardship

                                                                    Contract and Project
                                                                      Administration
      Contract Administration        Contract Management
                                                                    Acquisition Process
                                                                      Management

          Cyber Security                                               Cyber Security

                                     Leadership in Meeting
          Energy Supply
                                     Nation’s Energy Needs


         OIG Watch List

    Infrastructure Modernization    Revitalize Infrastructure

      Worker and Community
                                                                     Safety and Health
              Safety

    Human Capital Management                                    Human Capital Management




1
 According to Major Management Challenges and Program Risks, Department of Energy
(GAO-03-100, January 2003).
2
 The Department’s self-identified “Leadership Challenges” according to U.S. Department of
Energy Agency Financial Report, FY 2008 (November 2008).



______________________________________________________________________
Page 11        Challenge Areas and Significant Issues Reported by Various Groups
                                                                    Appendix 2
______________________________________________________________________________


                 Relevant Reports Issued in Fiscal Year 2008

Contract Administration

   •   Inspection Report on Work Order Estimate and Cost Issues for Site Support Services at
       Los Alamos National Laboratory (IG-0780, October 25, 2007).
   •   Audit Report on Contract Transition Activities at the Nevada Test Site (OAS-M-08-02,
       November 26, 2007).
   •   Special Report on Review of Alleged Conflicts of Interest Involving a Legal Services
       Contractor for the Yucca Mountain Project License Application (IG-0792, April 2, 2008).
   •   Audit Letter Report on The Department’s Controls over Leased Space in the National
       Capital Area (OAS-L-08-09, April 17, 2008).
   •   Inspection Report on Office of Science Laboratory Conferences (IG-0794, May 22,
       2008).
   •   Audit Letter Report on Bonneville Power Administration’s Aviation Management
       Program (OAS-L-08-14, June 24, 2008).
   •   Audit Report on Management Controls over Small Business Opportunities at Oak Ridge
       National Laboratory (OAS-M-08-08, July 2, 2008).
   •   Audit Report on Management Controls over Monitoring and Closeout of Small Business
       Innovation Research Phase II Grants (OAS-M-08-09, July 14, 2008).


Cyber Security

   •   Audit Report on The Department’s Cyber Security Incident Management Program (IG-
       0787, January 16, 2008).
   •   Audit Report on Management of the Department’s Publicly Accessible Websites (IG-
       0789, March 13, 2008).
   •   Audit Report on Certification and Accreditation of the Department’s National Security
       Information Systems (IG-0800, August 11, 2008).
   •   Evaluation Report on The Department’s Unclassified Cyber Security Program – 2008
       (IG-0801, September 16, 2008).
   •   Evaluation Report on The Federal Energy Regulatory Commission’s Unclassified Cyber
       Security Program – 2008 (IG-0802, September 17, 2008).


Energy Supply

   •   Audit Report on Continuity of Operations at Bonneville Power Administration (IG-0781,
       November 6, 2008).
   •   Audit Report on Department of Energy’s Receipt of Royalty Oil (IG-0786, January 4,
       2008).


______________________________________________________________________
Page 12                            Relevant Reports Issued in Fiscal Year 2006
                                                                    Appendix 2
______________________________________________________________________________


Environmental Cleanup

   •   Audit Report on Management Controls over Operations of the Integrated Disposal
       Facility at the Hanford Site (OAS-M-08-04, December 18, 2007).
   •   Audit Report on The Department’s Progress in Meeting Los Alamos National Laboratory
       Consent Order Milestones (IG-0793, April 11, 2008).
   •   Audit Report on Yucca Mountain Project Document Suspension (OAS-M-09-07, April
       28, 2008).
   •   Audit Report on Management Controls over Changes to the Idaho Cleanup Project
       Contract Baseline (OAS-M-08-10, July 30, 2008).


Safeguards and Security

   •   Inspection Report on The Consolidated Terrorism Watchlist Nomination Process at the
       Department of Energy (IG-0788, October 2, 2007).
   •   Inspection Report on Selected Aspects of the East Tennessee Technology Park’s Security
       Clearance Retention Process (IG-0799, October 18, 2007).
   •   Audit Report on Management Controls over Implementation of the Homeland Defense
       Equipment Reuse Program (OAS-M-08-03, December 11, 2007).
   •   Inspection Report on Incident of Security Concern at the Y-12 National Security
       Complex (IG-0785, January 1, 2008).
   •   Audit Report on Management Controls over the Department of Energy’s Uranium
       Leasing Program (OAS-M-08-05, January 23, 2008).
   •   Inspection Report on Unauthorized Weapon Discharge and Related Security Policies and
       Procedures at Sandia National Laboratory – New Mexico (INS-O-08-01, February 28,
       2008).
   •   Inspection Report on Office of Intelligence and Counterintelligence Internal Controls
       over the Department of Energy’s Sensitive Compartmented Information Access Program
       (IG-0790, March 21, 2008).
   •   Special Report on The Department’s Unclassified Foreign Visits and Assignments
       Program (IG-0791, March 24, 2008).
   •   Audit Report on Management Controls over Defense Related High Risk Property (OAS-
       M-08-06), April 24, 2008).
   •   Inspection Report on Internal Controls over Sensitive Compartmented Information
       Access for Selected Filed Intelligence Elements (IG-0796, July 1, 2008).
   •   Audit Report on Implementation of Integrated Safety Management at Lawrence
       Livermore National Laboratory (IG-0797, July 2, 2008).
   •   Audit Report on Sandia National Laboratories Nuclear Weapons Safety Program (IG-
       0799, July 31, 2008).




______________________________________________________________________
Page 13                            Relevant Reports Issued in Fiscal Year 2006
                                                                    Appendix 2
______________________________________________________________________________


Stockpile Stewardship

   •   Audit Report on Nuclear Weapons Programs Heavy Water Inventory (IG-0798, July 15,
       2008).


Worker and Community Safety

   •   Audit Report on Beryllium Surface Contamination at the Y-12 National Security
       Complex (IG-0783, December 17, 2007).
   •   Inspection Report on The Department of Energy’s Pandemic Influenza Planning (IG-
       0784, December 19, 2007).
   •   Audit Report on Nanoscale Materials Safety at the Department’s Laboratories (IG-0788,
       February 28, 2008).
   •   Audit Report on Resolution of Personal Safety Issues at the Department of Energy (OAS-
       L-08-15, August 7, 2008).
   •   Inspection Report on Sandia National Laboratory – New Mexico Student Intern Safety
       Training (INS-L-08-06, September 5, 2008).




______________________________________________________________________
Page 14                            Relevant Reports Issued in Fiscal Year 2006
                                                                    IG Report No. DOE/IG-0808

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:
1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?
2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?
5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:


                U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.
